              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Material Control and Accountability at
Los Alamos National Laboratory




DOE/IG-0774                            September 2007
                                 Department of Energy
                                     Washington, DC 20585


                                      September 7,2007


MEMORANDUM FOR

FROM:
                         Insp~ct&General

SUBJECT:                 INFORMATION: Inspection Report on "Material Control and
                         Accountability at Los Alamos National Laboratory"

BACKGROUND

The Department of Energy's Los Alamos National Laboratory (LANL) has a national security
mission that includes responsibility for the science, engineering and technology related to certain
radioactive materials supporting the Nation's nuclear weapons program. These include materials
such as plutonium, enriched uranium and depleted uranium.

LANL maintains inventories of Categories I, 11,111, and IV accountable nuclear material.
Categories I and I1 materials are those that would be most attractive to an adversary intent on
theft or diversion. Categories 111 and N materials are those that would be less attractive, because
they contain smaller quantities of plutonium, uranium or other materials.

The capability to prevent, deter or detect the theft or diversion of nuclear material is critical. As
such, control and accountability of this material is provided through a Material Control and
Accountability (MC&A) Program. The objective of our inspection was to determine if LANL's
MC&A Program was providing timely and accurate information regarding the inventory, transfers,
characteristics and location of accountable nuclear materials at the Laboratory.

RESULTS OF INSPECTION

We concluded that, in general, the Laboratory's MC&A Program provided timely and accurate
information concerning its inventory of accountable nuclear material. However, we identified
certain opportunities for improving controls over the nuclear material inventory. For example:

        Several inventories conducted by LAhTL were not completed in a timely manner due to
        problems with performing verification measurements within specified time fiames.
        Similar findings were reported during 2003 and 2005 external Safeguards and Security
        Surveys of LANL.

        A storage vault that contained over 11,000 individual lots of accountable nuclear material
        had not undergone a 100 percent inventory in over a decade. LANL used weighted
        sampling to conduct its inventories, which was consistent with its approved MC&A Plan.




                                    @    Printed with soy ~ n kon recycled paper
       While the use of properly structured weighted sampling is a recognized technique, the
       reality is that some lots may not have been physically verified in many years. We noted
       that the lack of a 100 percent inventory was identified as a concern during a contractor
       "due diligence inspection" when the LANL management contract transitioned fiom the
       University of California to Los Alamos National Security, LLC, in June 2006.

       The formulation, assignment and labeling of lot identification numbers could be
       improved to enhance controls over and accuracy in accounting for nuclear material.

       Eight custodians were both the shipping and receiving agent in the same transaction,
       which violated a Department requirement for separation of duties.

       Contrary to LANL7sMC&A Plan, in several instances lots containing multiple items of
       accountable nuclear material (anywhere from 3 to 157 items) were annotated in the
       Laboratory's MC&A accounting system as single items.

We made several recommendations designed to enhance the security of LANL's management of
accountable nuclear materials.

MANAGEMENT REACTION

In responding to a draft of this report, management agreed with our recommendations and
identified corrective actions taken, initiated, or planned to address them. Management's
comments are provided in their entirety in Appendix C of the report. We consider management's
comments to be responsive to our recommendations.

Attachment

cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff
      Chief Health, Safety and Security Officer
      Manager, Los Alamos Site Office
      Director, Policy and Internal Controls Management (NA-66)
      Director, Office of Internal Review (CF- 1.2)
      Audit Liaison, Los Alamos Site Office
MATERIAL CONTROL AND ACCOUNTABILITY
AT LOS ALAMOS NATIONAL LABORATORY



TABLE OF
CONTENTS


              OVERVIEW

              introduction and Objective ......................................................

              Otxervations and Conclusions                    .............................................




              DETAILS OF FINDINGS

              MC&A Program Performance ................................................

                     MC&A Controls Inside the MAA                        ..................................


                     MC&A Con.trols Outside the MAA                         ...............................




              INSPECTOR COMMENTS                       ...............




              APPENDICES

              A . Scope and Methodology ...................................................

              B . Accuracy of MC&A lnfot-mation .......................................

              C . Management ~ml-lments..................................................
Overview

INTRODUCTION    The Department of Energy's (DOE'S) Los Alamos National
AND OBJECTIVE   Laboratory (LANL) is a multidisciplinary research institution
                engaged in strategic science on behalf of national security. This
                includes the responsibility for the science, engineering, and
                technology of plutonium and other radioactive materials in support
                of the Nation's nuclear weapons stockpile program. These
                materials may constitute accountable nuclear material, which is a
                collective tenn that includes all materials so designated by the
                Secretary of Energy in quantities that require special control.
                Examples of these materials include plutonium, enriched uranium,
                and depleted uranium.

                LANL's activities require the maintenance of inventories of
                Categories I, 11, 111, and IV accountable nuclear material. Categories
                I and 11 are the most attractive to an adversary intent on theft or
                diversion and generally include weapon components such as pits, as
                well as other pure products and high-grade materials containing
                significant quantities of plutonium and uranium. At LANL, these
                categories of material are maintained in Material Balance Areas
                located within LANL's Material Access Area (MAA).

                Categories 111 and IV materials are considered less attractive to an
                adversary because they contain smaller quantities of plutonium,
                uranium, and other materials. While the MAA does contain some
                Categories 111 and 1V materials, these categories of accountable
                nuclear material are generally maintained in Material Balance
                Areas located throughout the Laboratory's Limited Security and
                Property Protection Areas.

                LANL maintains approxiinately 19,400 lots of accountable nuclear
                material within the MAA and approximately 7,500 lots at other
                locations throughout the Laboratory. The capability to deter,
                detect, and assist in the prevention of theft or diversion of this
                material is critical. As such, LANL maintains a graded safeguards
                program under a Material Control and Accountability (MC&A)
                Program. This Program was established under the requirements of
                DOE Order 470.4, "Safeguards and Security Program," and DOE
                Manual 470.4-6, "Nuclear Material Control and Accountability,"
                and is operating under LANL's recently approved MC&A Plan.

                The objective of this inspection was to determine if LANL's
                MC&A Program was providing timely and accurate information
                regarding the inventory, transfers, characteristics, and location of
                accountable nuclear materials at the Laboratory.



Page 1                                     Material Control and Accountability
                                           at Los Alamos National Laboratory
OBSERVATIONS AND   We concluded that in many respects LANL's MC&A Program
CONCLUSIONS        provided timely and accurate information concerning the
                   inventory, transfers, characteristics, and location of accountable
                   nuclear material at the Laboratory. However, we identified certain
                   opportunities for inlproving controls over accountable nuclear
                   material maintained both inside and outside the MAA.

                   Within the MAA. we sampled 66 accountable nuclear material
                   lots, including Categories I and I1 materials, and 30 associated
                   tamper indicating devices. We found all lots of accountable
                   nuclear material to be consistetlt with the characteristics and
                   locations identified in the Laboratory's official MC&A accounting
                   system. We also found that the limited number of transfers of
                   accountable nuclear material within the MAA was appropriately
                   documented. We observed Laboratory MC&A personnel
                   conducting semi-annual inventory activities, and the personnel
                   appeared to be conforming with prescribed inventory procedures.
                   However, during our review we identified the following cotlcerns
                   that we believe warrant management attention:

                      Six of six inventories conducted by LANL in the MAA since
                      December 2005 were not con~pletedin a timely manner due to
                      problems with performing verification measurements within
                      specified time frames. We noted that similar findings were
                      identified and reported during 2003 and 2005 Los Alamos Site
                      Office Safeguards and Security Surveys;

                      The storage vault in the MAA, which contained over 1 1,000
                      individual lots of accountable nuclear material, had not
                      undergone a 100 percent inventory for a number of years,
                      perhaps 13 years or more. Consistent with its MC&A Plan,
                      LANL used weighted sampling to conduct its inventories.
                      However, we are concerned that, by relying on weighted
                      sampling and never conducting a 100 percent inventory, LANL
                      crcated the potential for some lots not to have had their
                      presence physically verified in over a decade. We noted that a
                      100 percent inventory was not even conducted when the LANL
                      management contract transitioned from the University of
                      California to Los Alamos National Security, LLC, in
                      June 2006; and,

                      The formulation, assignment, and labeling of lot identification
                      nutnbers could be improved to enhance controls over and
                      accuracy in accoutlting for nuclear material. For example, lot
                      identification numbers were not always formulated in



Page 2                                             Observations and Conclusions
            accordance with applicable instructions, and different lots were
            assigned the same identification number, which could lead to
            confusion.

         Outside the MAA, we observed operations and inventory
         procedures in several Categories 111 and IV Material Balance
         Areas. We also sampled 814 Categories 111 and IV lots of
         accountable nuclear material in 7 separate Material Balance Areas.
         We found MC&A activities that were not consistent with DOE
         and/or LANL MC&A requirements. Specifically:

            Eight custodians shipped accountable nuclear material from
            one Material Balance Area to another where they were the
            receiving custodian. Thus, they were both the shipping and
            receiving agent in the same transaction-this violated a DOE
            requirement for separation of duties;

            I11 several instances, lots containing multiple items of
            accountable nuclear material were annotated in the
            Laboratory's official MC&A accounting system as single
            items, contrary to the accounting structure identified in
            LANL's MC&A Plan. We noted that these lots actually
            contained anywhere from 3 to 157 discrete accountable items;
            and,

            A Material Balance Area custodian did not appropriately
            document the creation of a new lot of accountable nuclear
            material within the time frame required by LANL's MC&A
            Plan. Under the circumstances, the nuclear material could have
            been diverted without any record showing that it had ever
            existed.

         In addition, across multiple Categories I I I and IV Material Balance
         Areas, w e had several concerns based on instances of non-
         compliance with applicable MC&A procedures for the recording of
         infornlation in the Laboratory's official MC&A accounting system
         and the labeling of lots. A detailed discussion of the issues can be
         found in Appendix 6.




Page 3                                  Observations and Conclusions
Details of Findings

MC&A PROGRAM         We concluded that LANL's MC&A Program could be iinproved
PERFORMANCE          with regard to the provision of timely and accurate information
                     concerning the inventory, transfers, characteristics, and location of
                     accountable nuclear materials. We identified opportunities for
                     improvement in controls over accoilntable nuclear material
                     maintained both inside and outside the MAA.

MC&A Controls        Within the MAA, we sainpled 66 accoilntable nuclear material
Inside the MAA       lots, including Categories I and I1 materials, and 30 associated
                     tamper indicating devices. We found all lots of accountable
                     nuclear material to be consistent with the characteristics and
                     locations identified in LANL's Materials Accounting and
                     Safeguards System (MASS), which is the Laboratory's official
                     MC&A accounting system. We also found that the limited number
                     of transfers of accountable nuclear material within the MAA was
                     appropriately documented. In addition, while conducting our
                     inspection, we observed Laboratory MC&A personnel conducting
                     a semi-annual inventory, which used prescribed inventory
                     procedures based on a weighted sample approach. LANL
                     reviewed 430 lots and 370 tamper indicating devices in 17 Material
                     Balance Areas and only identified discrepancies with two tamper
                     indicating devices and one container label.

                     However, duriiig our review we identified the following concerns
                     that we believe warrant management attention.

Completion of Past   We found that six of six inventories coilducted by LANL in the
Inventories          MAA since December 2005 were not completed in a timely
                     manner due to problems with performing verification
                     nieasurements within the specified eight working days time frame.
                     This is similar to findings reported during 2003 and 2005 Los
                     Alamos Site Office Safeguards and Security Surveys.

                     DOE MC&A policies require that nuclear material accounting
                     systems be structured to ensure timely detection of errors or
                     discrepancies in records associated with Category I or 11 quantities
                     of accountable nuclear material. In this regard, the LANL MC&A
                     Plan provides that during physical inventories a Nuclear Material
                     Physical Inventory Measurement ticket will be used to identify
                     accountable i tems requiring further nieasurement. These
                     measurements are then to be completed within eight working days,
                     with the results reported to the LANL Physical Inventory Officer.




Page 4                                                             Details of Findings
                       Due to a series of issues, such as a contamination incident in the
                       MAA storage vault, the MAA laboratory that conducts the required
                       inventory verification measurements was shut down for lengthy
                       periods of time during the first half of 2006. This resi~ltedin four
                       bi-monthly process area and two semi-annual storage area
                       inventories remaining open for as long as 10 months. This had the
                       potential to impact LANL's ability to ensure the timely detection
                       of errors or discrepancies. The inventories were not closed until
                       October 2006.

Inventory of Storage   We identified that the storage vault in the MAA, which contains
Vault                  over 11,000 individual lots of accountable nuclear material, had
                       not undergone a 100 percent inventory for a number of years,
                       perhaps 13 years or more. Consistent with its MC&A Plan, LANL,
                       used weighted sampling to conduct its inventories. However, we
                       are concerned that, by relying on weighted sampling and never
                       conducting a 100 percent inventory, LANL created the potential
                       for some lots not to have had their presence physically verified in
                       over a decade. We noted that a 100 percent inventory was not
                       even conducted when the LANL management contract transitioned
                       from the University of California to Los Alamos National Security,
                       LLC, in June 2006.

                       LANL's sampling approach identifies 110 lots plus adjacent items
                       for inventory every semi-annual period, with the sample weighted to
                       ensure that the most "attractive" items in storage have the greatest
                       chance of being selected and "less attractive" items the least chance
                       of being selected. LANL's reasoning for reliance on this statistical
                       sampling method was based on the Laboratory's policy of ALARA
                       (As Low As Reasonably Achievable) radiation exposure and the
                       area's relatively high level of radiation. During discussions with
                       assigned technicians and other MC&A-related personnel, we were
                       unable to find anyone with knowledge or documentation of the last
                       time the vault was completely inventoried. In contrast to LANL's
                       practice, we noted that Lawrence Livermore National Laboratory
                       conducted 100 percent semi-annual inventories of the accountable
                       nuclear materials in its MAA.

                       During contract transition, Los Alamos National Security, LLC,
                       perfo~med"due diligence" inspections of laboratory facilities and
                       operations to identify those conditions it believed could give rise to
                       liability, loss, damage, or non-compliance with the t e m ~ sof its
                       contract. As part of this effort, Los Alamos National Security,
                       LLC, noted that a 100 percent inventory of Special Nuclear
                       Material had not been conducted. To meet "due diligence"



Page 5                                                               Details of Findings
                     requirenients, Los Alamos National Security, LLC, conducted
                     statistical sampling of Special Nuclear Material and plans actions
                     within the next 2 years to ensure 100 percent accountability of
                     items in the invcntory. Given the sensitivity of the nuclear
                     material involved, we believe Los Alamos National Security, LLC,
                     should place particular emphasis on assuring that all materials in
                     the vault are properly accounted for at the earliest possible time.
                     National Nuclear Security Administration Headquarters and Los
                     Alamos Site Office officials suggested to us that DOE policy
                     should be modified to require periodic 100 percent inventories
                     when statistical sampling is used as the primary method of assuring
                     accountability of accountable nuclear material.

Lot Identification   We found that the forn~ulation,assignment, and labeling of lot
Numbers              identification numbers could be improved to enhance controls over
                     and accuracy in accounting for nuclear material.

                     The MAA maintains Process Accountability Flow Diagrams that
                     contain instructions on how to develop an identification number for a
                     particular lot of accountable nuclear material. The Diagrams provide a
                     methodology for generating lot identification numbers based on a
                     naming convention for each process, i.e., a production activity.
                     However, we determined that the instructions were not always
                     followed. We noted during our inspection that the formulation of lot
                     identification numbers was often based on the preference of the
                     technicians who worked with the materials. For example, we were
                     told one technician's lot identification numbers were based on the
                     characters in a movie the technician had just seen.

                     In addition, during our sampling process, we noted that side-by-side
                     Material Balance Areas used numbering systems that resulted in
                     some duplication of lot identification numbers. In two instances, we
                     noted that lots in the different Material Balance Areas had exactly
                     the same lot identification number, potentially making inventory
                     verification activities difficult. Verbal confirmations from facility
                     workers were required to provide assurance that these lots had been
                     accounted for properly. We were told by an MC&A official that
                     MASS allows items in different material accounts (i.e., Material
                     Balance Areas) to have the same lot identification number.

                     We also noted that the labeling of lot identification numbcrs varied
                     significantly from item to item. For example, some items had their
                     lot identification numbers marked on the outside of containers or
                     plastic bags with a felt-tipped marker, other items had their lot
                     identification numbers handwritten or typed on tags attached to the



Page 6                                                            Details of Findings
                       items, and some items had their lot identification numbers physically
                       engraved on the items. Some of these practices resulted in difficulty
                       reading lot identification numbers due to handwriting
                       inconsistencies, wearing away of the identification numbers due to
                       handling of the items, or obliteration of the lot identification
                       numbers due to mechanical processes used while working with the
                       items in the process area.

                       Outside the MAA, we observed operations and inventory
                       procedures in several Categories 111 and IV Material Balance
                       Areas. We also randomly sampled 814 Categories 111 and IV lots
                       of accountable nuclear material in 7 Material Balance Areas. The
                       following MC&A activities were inconsistent with DOE and/or
                       LANL MC&A requirements.

Separation of Duties   We found that eight custodians shipped accountable nuclear
                       material from one Material Balance Area to another where they
                       were the receiving custodian. Thus, they were both the shipping
                       and receiving agent in the same transaction-this violated DOE
                       Manual 470.4-6, which states "a single custodian must not serve as
                       both shipper and receiver for material transfers."

                       During our inventory of selected items in a Material Balance Area,
                       we determined that a Material Balance Area custodian had both
                       shipped and then received accountable nuclear materials between
                       Material Balance Areas that he administered. A subsequent query
                       of MASS by MC&A officials determined that seven other
                       custodians had transferred material to themselves. LANL issued
                       an Internal Assessment Report that stated "Custodians may not
                       ship materials from one MBA and then receive it in another MBA
                       as defined in DOE M [Manual] 470.4-6 . . . ." The Internal
                       Assessment Report also stated that "Each custodian was
                       immediately contacted and notified of the violation." In addition,
                       each custodian was requested to acknowledge hislher
                       understanding of the requirement to preclude recurrence. As an
                       immediate compensatory measure, LANL management requested a
                       daily report that monitors accountable nuclear material transfer
                       transactions to ensure the same custodian does not ship and receive
                       material between Material Balance Areas helshe controls.

Multiple Item Lots     We also found that, in several instances, lots containing multiple
                       items of accountable nuclear material were annotated in MASS as
                       single items, contrary to the accounting structure identified in
                       LANL's MC&A Plan. We determined that these lots actually
                       contained anywhere from 3 to 157 discrete accountable items.



Page 7                                                              Details of Findings
                      Under LANL's MC&A Plan, nuclear materials are to be accounted
                      for by discrete item. MASS is used to maintain detailed item
                      inventory records, categorized by material type, composition,
                      location, and process status, and is to provide a complete audit trail
                      on all accountable nuclear material from receipt through
                      disposition. The practice we observed with multiple item lots was
                      not consistent with the concepts of accounting by "discrete item"
                      and having "detailed item inventory records" and "a complete audit
                      trail." Not annotating MASS with the specific number of individual
                      accountable items comprising a lot prevented LANL from knowing
                      exactly how many discrete accountable items the Laboratory was
                      maintaining and could have negatively impacted the control and
                      accountability of nuclear materials. When we raised this issue,
                      LANL management stated that it would require Material Balance
                      Area custodians to use the comment field in MASS to note when a
                      specific lot contains more than one discrete item.

Timely Recording in   We found that a Material Balance Area custodian did not document
MASS                  the creation of a new lot of accountable nuclear material in MASS
                      within the time frame required by LANL's MC&A Plan. The
                      MC&A Plan states "Tinleliness goals for closing N M [Nuclear
                      Material] transactions onto MASS are established on a graded
                      safeguards basis as follows: Category IV NM in four hours." In
                      the instance we identified, however, the lot was created on
                      September 5 , 2006, but was not entered into MASS ~lntil
                      September 13, 2006, eight days past the required time frame.

                      Although we only identified the one instance of noncompliance,
                      ensuring compliance with this MC&A Plan requirement is
                      essential because of the potential that undocunlented accountable
                      material co~lldbe diverted without any record or evidence showing
                      that it had ever existed. Due to our identification of this condition,
                      LANL management issued an Internal Assessnient Report
                      acknowledging that an accountable item "had been generated . . . ,
                      but was not entered into MASS within the 4 hour time requirement
                      of the MC&A Plan." The custodian responded that this was an
                      oversight. The Internal Assessment Report stated that the
                      custodian would be retrained 011 the requirements of applicable
                      work instructions.

Accuracy of MC&A      In addition, across multiple Categories 111 and IV Material
Information           Balance Areas, we had several concerns based on instances of non-
                      coinpliance with applicable MC&A procedures for the recording of




Page 8                                                               Details of Findings
                  infom~ationin MASS and the labeling of lots. A detailed
                  discussion of the issues can be found in Appendix B.

RECOMMENDATIONS   We reconimend that the Chief Health, Safety and Security Officer:

                  1. Consider modifying DOE Manual 470.4-6 to require periodic
                     100 percent inventories when statistical sampling is used as the
                     primary method of assuring accountability of accountable
                     nuclear material.

                  We recommend that the Manager, Los Alamos Site Office, directs
                  LANL MC&A management to:

                  2. Ensure that bimonthly and semi-annual inventories in the
                     MAA are completed in a timely manner, to include completion
                     of verification measurements within specified time frames.

                  3. Review the formulation, assignment, and labeling of lot
                     identification numbers and implement more standardized
                     methodologies that would enhance controls over and accuracy
                     in accounting for nuclear material.

                  4. Ensure that LANL maintains separation of duties when
                     shipping and receiving accountable nuclear material between
                     Material Balance Areas.

                  5. Ensure that the recording of multiple item lot information in
                     MASS is consistent with the concepts of accounting by
                     "discrete item" and having "detailed item inventory records"
                     and "a complete audit trail," as provided for under the
                     accounting structure of the LANL MC&A Plan.

                  6. Ensure that the creation of any new lot of accountable nuclear
                     material is recorded in MASS in the time frames required.

                  7. Review the issues discussed in Appendix B and take action to
                     ensure that information is appropriatelylaccurately recorded in
                     MASS in a timely manner, that lot identification tags are
                     accurate and intact, and that container labels list all required
                     information.




                                                                                      - -




Page 9                                                          Recommendations
MANAGEMENT   In comments on a draft of this report, the National Nuclear
COMMENTS     Security Administration (NNSA) generally agreed with the report
             and its recommendations. NIVSA identified complcted, ongoing,
             and planned actions to address recommendations 2 tliroi~gh7.

             Regarding recommendation 1, the Office of Health, Safety and
             Security (HSS) considered niod~fyingDOE Manual 470.4-6 and
             concluded that MC&A requirements should not be modified to
             require periodic 100 percent inventories. HSS summarized that
             "Although periodic 100 percent inventories are a good practice and
             many DOE facilities perfonn them, there are circumstances when
             conducting 100 percent inventories is not practical and providing a
             high level of assurance by other means is a preferable approach.
             For these situations, the marginal increase in assurance provided
             by conducting 100 percent physical inventories does not justify the
             additional costs, worker radiation exposure, operational impacts,
             and in some cases increased security risks."

             Management's comments are contained in their entirety at
             Appendix C.

INSPECTOR    We consider management's comments to be responsive to our
COMMENTS     recommendations.




Page 10                             Management and Inspector Comments
Appendix A

SCOPE AND     We conducted our inspection fieldwork between June and
METHODOLOGY   December 2006. Los Alamos Site Office and Laboratory
              personnel were interviewed regarding LANL MC&A procedures.
              the MC&A Program, and MASS. We reviewed applicable policies
              and procedures, as well as inspection and survey reports issued by
              the Los Alamos Site Office and the Department's Office of
              Independent Oversight. We observed a number of LAML-
              conducted inventories at various Material Balance Areas, to
              include 3 16,424,425,428,429, and 469 and the 700 and 800
              series. We conducted a number of random samples at various
              Material Balance Areas, to include 3 10, 3 15, 3 16, 424, 469, 5 17,
              and 520 and the 700 and 800 series. We did not conduct sampling
              in LANL's vault area due to safety considerations.

              We did not review LANL's performance measurement processes as
              they relate to the MC&A Program because DOE had temporarily
              relieved Los Alamos National Security, LLC, the new management
              and operating contractor at LANL, of performance measi~rement
              requirements. The new contract was awarded on December 21,
              2005, and comnlenced on June 1, 2006. Performance measures and
              associated incentives were not put into place until October 2006.

              This inspection was conducted in accordance with the "Quality
              Standards for Inspections" issued by the President's Council on
              Integrity and Efficiency.




Page 11                                               Scope and Methodology
Appendix B

Accuracy of MC&A   Across multiple Categories 111 and 1V Material Balance Areas, we
Information        identified several issues involving instances of non-compliance
                   with applicable MC&A procedures for the recording of
                   infomiation in MASS and the labeling of lots. Specifically, we
                   found that:

                      While conducting a series of random samples in the Chemical
                      and Metallurgy Research Facility, we noted that every lot we
                      sampled that consisted of solid material dissolved in a solution
                      was recorded in MASS as if the material were still in a solid
                      state, i.e., grams instead of grams per liter, as presented in DOE
                      guidance. Material categorization as described in the LANL
                      MC&A Plan is based on the attractiveness level and quantity of
                      material, so accurately identifying the nature and amount of
                      material present is important. LANL uses the attractiveness
                      levels prescribed by DOE guidance, where it is recognized that
                      Categories 1, 11, 111, and IV materials can be in the fonn of
                      solutions, specified as so many grams per liter.

                      One lot identification number was listed as active in MASS
                      even though the lot was destroyed nearly 12 months earlier
                      during a December 2, 2005, hydrodynamic test. The Material
                      Balance Area custodian said that the deletion paperwork was
                      properly submitted at the time of destruction, but was lost prior
                      to MASS transaction generation. The lot was finally removed
                      from MASS on November 27,2006.

                      Five required lot identification labels had deficiencies. Three
                      labels had incorrect lot identification numbers hand printed on
                      them; one label was tom in half; and one label had become
                      detached from its assigned lot. In the case of the first three
                      labels, pen and ink corrections were immediately made. We
                      were told that the label discrepancies relating to the tom and
                      detached labels were corrected after our departure.

                      Three tamper indicating devices attached to accountable items
                      were not recorded in MASS. Tamper indicating devices are
                      ~isedin conjunction with a material surveillance program to
                      detect violations of container integrity. The necessary MASS
                      transactions and/or other corrections were accomplished.

                      The lot identification numbers for one drum and nine lots
                      stored therein had their identification niu-nbers transposed in
                      MASS. During our random sample, two laboratory personnel
                      spent approximately 30 minutes attempting to locate a drum we



Page 12                                             Accuracy of MC&A Information
Appendix B

             had selected to be inventoried. A determination was made that
             the lot identification number must be wrong, and subsequently
             the drum was located. It was determined that the drum and all
             the lots stored therein had their lot identification numbers
             transposed during the shipping process and incorrectly
             recorded in MASS.

             The labels for two sealed drums did not list all internally stored
             lots, as required. An August 14, 2003, notice from the LANL
             Security and Safeguards Division titled "Accountability
             Requirements for Multiple-Item Containers" stated that "In all
             cases, the NM [nuclear material] custodian must ensure the
             label of the multiple-item container correctly lists all
             accountable and nonaccountable items within the container."
             We were told that content listings were later attached to the
             outside of the drums.




Page 13                                    Accuracy of MC&A Information
Appendix C




                                      Department of Energy
                               National Nuclear Security Administration
                                       Wash~ngton,DC 20585




             MEMORANDLJM FOR                Chr~stopherR. Sharpley
                                            Dep~ityInspector General


             FROM:
                                            dsociatc ~ d m i n i d a t o r
                                              for Management and Admin~stration

             SUBJECT:                       Comments to Draft LANL MC&A Report;
                                            S061S023; IDRMS No. 2006-14003


             'Phc National Nuclear Security Administration (NNSA) appreciates the
             opportunity to review thc Inspector General's (IG) draft report on material
             control and accountability at Los Alarnos National Laboratory. We
             understand that this inspect~onwas to determine if the Laboratory's
             Material Control & Accounting (MC&A) program is provitling tinicly and
             accurate information regarding the inventory, transfers, character~stics,
             and location of accountable nuclear materials at the Laboratory.

             NNSA generally agrees with thc report and the rccommentlations but
             offers the following com~ncnts:

                    100% inventories - - While we understand the intent of the
                    rccommentlation there is no requirement for such an inventory. It
                    is important to note that the Laboratory currently meets the
                    requirements for conducting physical inventories. A change to
                    policy must take into consideration the Icngth of time required for
                    a desired 100% invcntory with confirmation or vcrificafion
                    measurements and the impact that the inventory would have
                    operationally. Equally important is the condit~onswithiri any vault
                    (high radiation areas, requirement for respirators, annual radiation
                    tlose limits).
                    ,.
                     I inieliness of inventorics Incorporating rnilesfoncs into the
                    contract adheres to the current methodology wherc cun-ent
                    performance incentives arc linked to the completion of inventories
                    Standardired n~ethodologiesfor cntianccd controls is adtiressed
                    in the techn~calcomments.
                    Separation of duties A rnore explicit Standing Order was
                    developed and implemented and there have been no violations of




                                      @    P ' ~ l l e i wl:ll
                                                         l     .,uyr i k o r r r r y r l i d   ppil,nr




Page 14                                                                                                  Management Comments
Appendix C (continued)




                   the separation of duties for Material Balance Arca custodians slncc
                   inception of the Standing Ordcr.
            w      Consistent accounting - The Laboratory is still addrcss~nstllis
                   concern. Thc technical comments provide ~nsiglitlo the progrcss
                   being made and the Laboratory's resolution of this concern.
                   Recording of data within timerrames required and, addressing
                   issues discussed in Appendix B Both topical areas have becn
                                                    -


                   addressed and rectified by the Laboratory.

            1 have providcd technical comments for the LC's consideral~onin
            preparing the final report. Should you have any questions about t h ~ s
            response, please contact Richard Speidel, Director, Policy and Inlemal
            Conlrols Management.

            cc.    Donald Winchell, Manager, Los Alamos Site Office
                   William Desmond, Chief, Defense Nuclear Sccurity
                   David Boyd. Senior Procurement Executive
                   Karen Boardman, Director, Service Ccntcr




Page 15                                                              Management Comments
Appendix C (continued)




                                      Department of Energy
                                          Washington. DC 20585


                                               August 2 , 2 0 0 7


           MEMORANDUM FOR GFEGORY H. FRIEDMAN
                          INSPECTOR GENERAL                               ,
                                                                          :/,
           FROM:



           SUBJECT:                   , ~ < m m e n t sfor Draft IG Report: A t e r i a l Control and
                                /''     Accountability at Los Alamos National Laboratory
                                        (SO61S023)


           The Office of Health, Safety and Security (HSS) has revicwed the subject draft
           inspection report provided by the Inspector General's Officc on June 29, 2007, and
           providcs thc following comments.

           Recommendation I :

           W c recommend that the Chief Health, Safety and Security Officer consider
           modifying Departmcnt of Energy (DOE) Manual 470.4-6, Nuclear Materials
           C'ontrol and Accountability, to require periodic100 percent inventories when
           statistical sampling is used as the primary method of assuring accountability of
           accountable nuclear material.

           Concise Response:

           HSS docs not agree that DOE M 470.4-6 should be modified to require periodic I00
           percent inventories. When 100 percent inventories can be conducted quickly, safely,
           and efficiently, they are a good practice. However, for many nuclear material
           locations in the DOE co~nplex,this is not the case. Typically barriers to conducting
           100 percent physical inventories for such locations are high radiation levels and
           inaccessibility of the materials. For such materials, DOE relies on othcr measures to
           provide a high degree of assurance in the integrity of the inventories. W e feel that
           the additional assurance provided by conducting 100 percent inventorics in these
           cases docs not justify the increase in radiation exposure to workers, lost operational
           time in personnel workload while inventories are being conducted, other financial
           costs involved in conducting the inventories, increased risk in additional handling of
           nuclear materials, and, often, the increased security vulnerabilities associated with
           prov~dingeasier access to the materials during inventory periods.




Page 16                                                                          Management Comments
Appendix C (continued)




          Instcad, w e belleve the current safeguards and security policy approach of allowing
          site management, with oversight and approval from DOE site offices and program
          offices, to determine the best methodology for providing a high level of confidence
          in nuclear material inventories. The resulting methodology takes Into account all the
          specific concerns associated with the products and operations at each site and
          facility. W e do not belleve these site-spec~ficmethods would be improved by
          adding an unconditional requirement to conduct a 100 percent physical inventory.
          While per~odic100 percent inventories can be an important element of the site
          protection desrgn in miany cases, we tio not believe that an uncondit~onalpolley
          requirement for 100 percent ~nventoriesis warranted.

          Rationale:

          'I'here are a number of facilities in DOE for which 100 percent physical
          inventories are the best approach to providing a level of high level of assurance.

          There are at least three types of materials and/or locations for which 100 percent
          inventor~esmay not be appropriate. They are:

          1) Materials stored in high security areas for which conduct 100 percent
          physical inventories would significantly increase radiation exposure for
          workers. The Los Alamos National Laboratory (LANL) vault cited in the draft IG
          report is an example of this type of location. There are over 1 1,000 items on
          inventory in the vault. These items sit in a variety of shelf types and drawers. Some
          rcquire lifting the items from the drawers in order to perfon11 the inventorics. A
          large number of items are located on shelves requiring access by laddcr to inventory
          thc items. Radiation readings in some parts of the vault are greater than 100 mRem
          per hour and radiation dose for workers performing inventories in this vault can be
          LIPto 25-30 mRem per hour. Inventory teams are comprised of four workers: two
          people conducting the inventories, one material handler, and one radiation control
          technreian. All personnel are required to wear a respirator while performing
          ~nventoryin the vault to prevent the inhalation of toxic and radioactive materials.
          Bccausc of the radration dose in the vault, personnel are limited to 2 hours of work in
          the vault per day. A rough estimate of the time to conduct current physical
          inventories for the I A N L vault is between 7 and 9 hours (28 to 32 person-hours,
          based on four- person teams), and these inventories only select I 10-item locations.

          2) Materials of little financial or strategic value and for which the security
          interests are minor. The costs of conducting 100 percent inventories car1 far exceed
          the value of the materials or DOE security interests concerning them. Examples of
          rnaterials for which this can be the case are depleted uranium, enriched lithium, and
          some attractiveness level E special nuclear materials. See DOE M 470.4-6 for more
          infomiation on safeguards attractiveness levels.




Page 17                                                                  Management Comments
Appendix C (continued)




          3) Static storage locations with major barriers to access. There are several
          storage locations within DOE where there are major physical barriers to accessing
          materials. Additionally, the materials are rarely moved or handled. In some cases,
          there are radiation barriers as well. Accessing the materials typically requires
          renioval of the physical barriers by use of heavy equipment such as cranes or other
          lifting and handling devices; additionally, the materials are often packaged or stored
          in such a way that accessing individual items is difficult and requires special
          handling equipment andior procedures. These materials are usually inventoried by
          verifying that the barriers have remained intact, and the integrity of the storage
          locations has not been violated. Opening even a few of these locations is difficult,
          costly, and raises safety concerns. Conducting a 100 percent physical inventory of
          these locations would be very expensive and require large amounts of operational
          resources. Additionally, renioving the physical barriers for long periods of time or at
          predictable times would increase the security risks associated with terrorists attacks
          aimed at renioving the materials.

          A high level of assurance can be provided by other meanslthe costs and impacts
          of conducting 100 percent inventories can exceed their benefits.

          Conducting physical inventories is not the sole means of achieving and maintaining
          a high level of confidence in the nuclear material inventories and detecting missing
          or misplaced items. Inventories provide one measure of assurance within the overall
          safeguards and security program. Performance of inventories is integrated with
          other elements of the safeguards and security program, namely, physical protection,
          personnel security, other material control, accountability, and surveillance measures,
          protective force, and information security to establish the security posture for a
          particular site and set of material. It is also not a single fail-safe system. Systems
          are dcsigneci to be ~nultiplyredundant assuring that loss of onc element will not
          cause catastrophic failure of the entire system. Establishment of these multiple
          layers of protection measures provides a high level of confidence that special nuclear
          niaterial continues to reside in its designated location.

          Because of the costs and difficulties involved in conducting 100 percent inventories,
          DOE allows the use of other measures to provide the high degree of assurance
          rcquircd by DOE policy in its nuclear niaterial inventories. Physical barriers, access
          controls, and personnel security programs limit who has access to the matcrials and
          thereby greatly reduce the chance of unauthorized material movement.
          Administrative controls assure that inadvertent errors are not made when materials
          are moved into or out of a storage location or other areas. These controls include a
          two-person rule for handling and transferring materials, transfer checks on materials
          and containers to assure the right types and amounts of materials were shipped and
          recclved, requirements that transfers be appropriately authorized and documented,
          and separation of duties and responsibilities between materials handling and
          materials accounting functions. These measures, when combined with random




Page 18                                                                  Management Comments
Appendix C (continued)




          sampling during physical inventories, provide a high level assurance that the nuclear
          materials inventories are as stated.

          Use of r a n d o m sanlpling f o r physical inventories is consistent with its use in
          Departmental financial accounting and quality assurance policies.

          The use of random sampling for physical inventorics is similar to the way auditors
          use random sampling in reviewing financial records and to the way random sampling
          is used in quality control. Financial auditors sample company rccords and revicw
          internal controls as part of their process of determining whether a company's
          financial and invcntory reports accurately (fairly) represent the company's financial
          position. The auditor's statement about the accuracy/fairness of the company's
          financial statements is based on a sample of the company's record, rather than a
          review of all of them. Similarly in quality control, sampling of output is typically
          used to determine if a production system is operating as intended. Detection of
          defectives items indicates something is wrong with the system. Use of random
          sampling for physical inventories borrows from both thesc concepts. Random
          sampling, when combined with other system elements, allows DOE to say it has a
          high degree of confidence that its inventories are as stated. It also allows DOE
          facilities to detcct systematic problems in materials control and accountability
          (MC&A) systems.

           Summary:

          Physical inventories are only one of many measures that DOE uses to provide a high
          degree of confidence in its inventories. Although periodic 100 percent inventories
          are a good practice and many DOE facilities perform them, there are circu~nstances
          whcn conducting 100 percent inventories is not practical and providing a high level
          of assurance by other means is a preferable approach. For these situations, the
          marginal increase in assurance provided by conducting 100 percent physical
          inventories does not justify the additional costs, worker radiation exposure,
          operational impacts, and in some cases increased security risks. Based on these
          considerations, our view is that MC&A requirements should not be modified to
          require periodic 100 percent inventories. Rather, DOE M 470.4-6 should continue to
          allow DOE program and site offices to approve the inventory methodologies tailored
          for their mission and facility(ies). The program and site officcs are in the best
          position to know whether the bcncfits of conducting 100 percent inventories justify
          the cost and impacts of conducting them and whether a high level of assurance in the
          inventories can be achieved by other means.

           If you havc any questions, you may contact me at (301) 903-3777, or your staff may
           contact Jim Crabtree, of my staff, at (301) 903-6008.

           cc:    Richard Speidel, NA-66




Page 19                                                                    Management Comments
                                                                     IG Report No. DOEIIG-0774

                           CUSTONIER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report, which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG- 1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

                U.S. Department of Energy Office o f Inspector General Home Page



   Your co~nnientswould be appreciated and can be provided on the Custonler Response Form
                                    attached to the report.
